<html>
<title> - AMERICA'S PRESIDENTIAL LIBRARIES: THEIR MISSION AND THEIR FUTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   AMERICA'S PRESIDENTIAL LIBRARIES: 
                     THEIR MISSION AND THEIR FUTURE 
=======================================================================

             Committee on Transportation and Infrastructure
                            Serial No. 112-3
              Committee on Oversight and Government Reform
                           Serial No. 112-15

                             JOINT HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE

                                AND THE

                              COMMITTEE ON
                    OVERSIGHT AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2011

                               __________

                       Printed for the use of the
          Committees on Transportation and Infrastructure and
                    Oversight and Government Reform


               Available online at: http://www.fdsys.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-446 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman

DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland
JOHN L. MICA, Florida                EDOLPHUS TOWNS, New York
TODD RUSSELL PLATTS, Pennsylvania    CAROLYN B. MALONEY, New York
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina   Columbia
JIM JORDAN, Ohio                     DENNIS J. KUCINICH, Ohio
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
CONNIE MACK, Florida                 WM. LACY CLAY, Missouri
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts
JAMES LANKFORD, Oklahoma             JIM COOPER, Tennessee
JUSTIN AMASH, Michigan               GERALD E. CONNOLLY, Virginia
ANN MARIE BUERKLE, New York          MIKE QUIGLEY, Illinois
PAUL A. GOSAR, Arizona               DANNY K. DAVIS, Illinois
RAUL R. LABRADOR, Idaho              BRUCE L. BRALEY, Iowa
PATRICK MEEHAN, Pennsylvania         PETER WELCH, Vermont
SCOTT DesJARLAIS, Tennessee          JOHN A. YARMUTH, Kentucky
JOE WALSH, Illinois                  CHRISTOPHER S. MURPHY, Connecticut
TREY GOWDY, South Carolina           JACKIE SPEIER, California
DENNIS A. ROSS, Florida
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Blackwood, Duke, Director, Ronald Reagan Presidential Library....    28
Ferriero, Hon. David S., Archivist of the United States, National 
  Archives and Records Administration............................    28
Kumar, Dr. Martha, Professor, Towson University..................    28
Putnam, Thomas, Director, John F. Kennedy Presidential Library 
  and Museum.....................................................    28
Roosevelt, Anna Eleanor, Chair, Board of Directors, the Roosevelt 
  Institute......................................................    28
Schwartz, Dr. Thomas, Illinois State Historian, Abraham Lincoln 
  Presidential Library and Museum................................    28

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Norton, Hon. Eleanor Holmes, of the District of Columbia.........    56

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Blackwood, Duke..................................................    57
Ferriero, Hon. David S...........................................    64
Kumar, Dr. Martha................................................    68
Putnam, Thomas...................................................    76
Roosevelt, Anna Eleanor..........................................    91
Schwartz, Dr. Thomas.............................................    96

                       SUBMISSIONS FOR THE RECORD

Cummings, Hon. Elijah E., a Representative in Congress from the 
  State of Maryland, request to include the GAO report ``National 
  Archives: Framework Governing Use of Presidential Library 
  Facilities and Staff,'' February 2011..........................     6

                        ADDITIONS TO THE RECORD

Kennedy, Caroline, President, John F. Kennedy Library Foundation, 
  letter to Hon. John L. Mica, a Representative in Congress from 
  the State of Florida...........................................    99

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   AMERICA'S PRESIDENTIAL LIBRARIES:
                     THEIR MISSION AND THEIR FUTURE

                              ----------                              


                       MONDAY, FEBRUARY 28, 2011

        House of Representatives, Committee on 
            Transportation and Infrastructure, Joint with 
            the Committee on Oversight and Government 
            Reform,
                                                    Washington, DC.
    The committees met, pursuant to call, at 10:30 a.m., in 
room 2167, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the Committee on Transportation and 
Infrastructure) presiding.
    Mr. Mica. Good morning, I would like to call this joint 
hearing of the Committee on Transportation and Infrastructure 
and also the Committee on Oversight and Government Reform to 
order.
    Today the topic of the hearing is ``America's Presidential 
Libraries: Their Mission and Their Future.'' The order of 
business today will be opening statements by Members and then 
we will turn to our panel.
    Let me say at the outset, this is probably one of the more 
unique hearings in Congress that is today going to focus on a 
unique subject and that is again the mission, the future of our 
Presidential libraries and we decided to do that jointly. Our 
committee has some responsibility, legislative responsibility 
under the Economic Development, Public Buildings, and Emergency 
Management Subcommittee. Also, the important Government Reform 
and Oversight Committee chaired by my colleague the gentleman 
from California has very important legislative and oversight 
responsibility over Presidential libraries so it is a rather 
unique subject and unique approach.
    I might say at the outset, this isn't one of these hearings 
where we have a mission of some violation or some problems with 
the libraries. I think this is a very forward-looking hearing 
in trying to assess the current status of our Presidential 
libraries and also their important mission and also their 
future. It is impossible to have all of them in this panel and 
today's formal hearing is a representation. We have got a good, 
I think, cross-section of some of those involved with the 
Presidential libraries that we will hear from shortly.
    I want to thank, again, Chairman Issa, Chairman Gowdy of 
the subcommittee who has say over this also in Government 
Reform.
    Ms. Norton, Mr. Rahall isn't with us today, but we enjoyed 
his support in having this joint hearing. The other gentleman 
that has joined us, of course, is Mr. Cummings and I have had 
the great honor and privilege of working with him both as a 
chair and also as a ranking member in the past, and appreciate 
his support on Government Reform and the relationship we have 
shared over the years. So that is a little bit about our 
mission.
    Let me say a couple of things. First of all, most folks 
don't realize we have some publicly funded and sponsored 
Presidential libraries and we also have some private libraries. 
Many of them start out with private donations and end up in the 
public realm. I have had the opportunity to visit some of the 
libraries across the Nation and found it to be one of the most 
rewarding experiences that I could enjoy. I like a little bit 
of history like most folks, but it really gives the public, 
academia, and students--and people are interested in the 
history of the United States and our Presidents--great access, 
information, and are a tremendous resource and national 
treasure.
    The question of why we should have this hearing is because 
there are a whole host of the questions that need to be 
answered about how we proceed. Right now we are in tough 
economic times, especially the Federal Government. Sometimes 
some of the libraries that depend on private donations have 
also experienced some downturns both in terms of visitors and 
revenues. And then the important question again before us is 
their future mission, how that changes and evolves, and what 
the Federal role and participation are with these libraries.
    In talking with the Librarian of Congress, I did not 
realize this, but I believe he told me that Presidential papers 
from, I guess, Washington through Hoover are handled by the 
Library of Congress and I guess the National Archives and then 
we began the construction and creation of the Presidential 
libraries. There are a host of questions, as I said, that we 
hope to answer today. We probably won't get to all of them in 
this formal hearing.
    One of the things I like to do in addition to formal 
hearings is have an informal session. And this afternoon, 
beginning, I believe it is around 2:30, we will begin over in 
the Cannon Caucus Room a symposium. And we hope that those 
other representatives of both the public and private 
Presidential libraries, we know they will be joining us and we 
won't have quite as formal a discussion as we will have with 
the panel before us today.
    Again, the panel is only representative of all of you who 
have come today from across the country representing some of 
these great institutions.
    So in that symposium and forum--and it is open to Members 
of Congress, too, and any of the public, it is a public event. 
We will have an opportunity to ask some questions, hopefully 
get a good exchange and commentary on some of the questions 
that will be raised at the hearing today, and again, the 
important mission that these libraries have.
    We, again, thank all of those who have come today. I have 
had a chance to visit a few of the libraries, the Truman, the 
Roosevelt, the Nixon, the Reagan, the Kennedy, the Hoover, and 
I think most recently, the Lincoln, also a variety of public 
and private endeavors. And again, just an incredible 
opportunity for the public to walk through again and see, and 
review, and have access to the history of our leaders over the 
course of many generations.
    So again, that is the purpose of the formal hearing this 
morning, the symposium we will have this afternoon, a unique 
opportunity in Congress to sit down and again look at where we 
are and where we are going with one of our important national 
treasures and assets that we are the custodians of as far as 
Members of Congress and leaders of, again, our respective 
libraries.
    So with that, let me turn, if I may, to the gentlelady from 
the District of Columbia, Ms. Norton for an opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. I will say 
just a few words and ask to submit my opening statement for the 
record. I look forward to learning more about the Presidential 
libraries. As a member of both committees, your own 
Transportation and Infrastructure Committee and the committee 
of jurisdiction, Oversight and Government Reform, I note that 
there are a large number of visitors to these libraries, over 2 
million that President Roosevelt built the first, and ever 
since then, apparently every President has felt he must have a 
Presidential library. But it wasn't until 1955 that the Federal 
Government understood it was dealing with Federal history, 
Federal papers, and of course, the Presidential Libraries Act 
was passed.
    The relationship of these libraries to their foundations 
creates something of a hybrid within the Federal system so 
oversight is certainly appropriate. They have their own 
foundations, which, of course, are responsible for building 
these libraries, for these are official documents of the people 
of the United States. And this committee or the Congress has a 
very appropriate role. I ask that my statement be submitted for 
the record.
    Mr. Mica. Without objection, and now let me yield to the 
cochair of this joint hearing, a gentleman who chairs the 
Government Reform and Oversight Committee of the House of 
Representatives, from California, Mr. Issa, thank you.
    Mr. Issa. Thank you, Mr. Chairman and thanks for holding 
this joint hearing. As you said earlier, many of us on the dais 
serve on both hearings. So I have members of my committee who 
are sitting here in two roles just as Ms. Norton and Mr. 
Cummings are sitting here in two roles.
    There is a difference in the oversight that we will be 
looking at today. There is no question that for the 
Transportation and Infrastructure Committee, they are looking 
at the economic impact, the Federal assets themselves, the 
non--if you will, paper, if you will, Federal assets, 
particularly the facilities.
    In the case of our committee, we are looking at a 
combination of highest and best use for the Federal dollar. The 
cost of paying 100 percent of the costs of archivists at each 
of these facilities and the cost of basically about 45 percent 
being the Federal Government and State government's 
contribution through to--because of tax deductibility for 
charities of the other side. So the truth is the taxpayers are 
paying for these facilities on both sides.
    I think all of us on the dais believe it is money well 
spent, but it is money that has to be looked at carefully. If 
there were no Presidential libraries, there is no question that 
there would be hundreds of thousands of entities involved in 
every nuance of maintaining those records pouring through them.
    On the other hand, it could be that they would be more 
available as a researcher would want to look through ancient 
records. There is no question that each of the libraries has a 
natural struggle, one in which the followers and descendents of 
a President and the President himself, if he is still alive, 
wants to maintain a positive legacy, everything that happened 
on their watch was good.
    Well, in fact, history may show that there were gapping 
flaws from Jefferson to Nixon and then we will stay away from 
those beyond. There have been scandals and those scandals can, 
in fact, and may, in fact, be appropriate to have seen within a 
library. But let's understand there is a balance. Our 
Presidents represent, for the most part, progress in many, many 
areas, even among the most, if you will, failed or least 
popular Presidents.
    Additionally, our committee has, over the last many years, 
under both Republican and Democratic leadership, had a 
particular interest in inventory control at the libraries, 
access to researchers of the libraries and specially protected 
records, which is a nice way to say classified. Presidents 
operate at the highest level of secrecy and as a result, a 
great part of what goes on during a President's life is, in 
fact, classified for 50 years or more. We need to have that 
protected, both from premature release, but we also need to 
make sure that when the time is right, it can be released.
    Our committee has, over the years, had a number of 
legitimate concerns with information that is gone and will 
never be found, or at least it won't be found in our lifetime. 
So today's hearing is about hearing the good news and hearing 
from people who have a vested interest in their library doing 
well while meeting this challenge that Congress has given to 
primarily the private sector in support of their foundation. 
With that, I will put the rest in for the record and yield 
back.
    Mr. Mica. Thank you, Mr. Issa.
    Let me yield to the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman and 
Chairman Issa, Ranking Member Norton. I appreciate you for 
holding this hearing today on Presidential libraries. This is 
an issue that is very important to the Oversight Committee, 
because we have jurisdiction over the National Archives and 
Records Administration and the laws that govern Presidential 
libraries. I look forward to working on these issues with 
Chairman Issa, Chairman Gowdy in his role as chairman of the 
subcommittee with jurisdiction over the National Archives, as 
well as with the ranking member of that subcommittee, Danny 
Davis. And Chairman Mica, this hearing and the other events you 
have planned today provide a great opportunity to highlight our 
Presidential libraries.
    Presidential libraries play a critical role in making 
Presidential papers and artifacts available to researchers. 
These libraries also bring history to life for thousands of 
visitors each year. Most of the libraries operated by the 
National Archives also have a private foundation that sponsors 
their own programs and activities.
    Representative Lacy Clay in his role last year as chairman 
of the Committee on Information Policy, Census and National 
Archives, requested that the Government Accountability Office 
examine the laws and policies related to the Presidential 
libraries and the private library foundations. GAO is issuing a 
report today that provides a helpful description of the three 
primary laws that address Presidential libraries and the 
regulations and policies covering the relationships between 
libraries and private library foundations. I ask that this 
report be made a part of the hearing record.
    An interesting aspect of Presidential libraries is the 
relationship between libraries and the private library 
foundations. We are fortunate to have President Roosevelt's 
granddaughter here today. It was President Roosevelt who first 
had the idea for a privately built but federally maintained 
library to house his Presidential papers. The Presidential 
Libraries Act of 1955 formally established the policy for 
privately built Presidential libraries to be transferred to the 
Federal Government. Subsequent laws establish reporting and 
design requirements and some limitations such as requiring and 
operating endowment for each library starting with the George 
H.W. Bush Library.
    Finally, Mr. Chairman, the relationship between libraries 
and private foundations provide many benefits, but also can 
raise potential issues. For example, the sharing of space 
within the same facilities create questions about the proper 
use of library facilities, especially for political activities. 
In addition, donations provided by the private sector to 
private foundations to fund the building of these libraries are 
private.
    GAO reports that each library has a written agreement with 
its associated foundation, but the detail and scope of these 
agreements vary from library to library. GAO found that over 
time, the agreements have become increasingly more detailed 
regarding staff, how library facilities can be used, and 
political activities with regard to political activities. Some 
recent agreements also address potential conflicts of interest 
between the library and the foundation. And so one of the 
things I would be interested to hear is the continuing 
resolution recently passed by the House provides $32 million 
less for the National Archives than was enacted for fiscal year 
2010, and also $16 million less than the President's request 
for fiscal year 2011. I would love to know how our witnesses 
believe that those cuts are going to effect, if at all, the 
activities in those libraries and just give us some information 
with regard to where you think our priorities may be. So often 
we spend a lot of time cutting and cutting and cutting, but we 
cut off our past and it is kind of difficult to know your 
future and deal with your future if you don't have a history of 
your past.
    And so I consider these libraries very, very important. I 
appreciate the guests being here today. And with that, Mr. 
Chairman, I yield back.
    Mr. Mica. Thank you, and the request by the gentleman for a 
record he referred to to be made a part of the record without 
objection so ordered. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Let me yield now to the chair of the Economic 
Development Public Buildings and Emergency Management 
Subcommittee, the gentleman from California, Mr. Denham, you 
are recognized.
    Mr. Denham. Thank you, Mr. Chairman, I want to thank you 
for holding this hearing on this very important subject with 
the relationship between Federal Government and our Nation's 
public and private Presidential libraries. As you know, in 
California, I have both the Nixon and Reagan Libraries. The 
public benefit provided by these institutions is invaluable to 
the history of this Nation and to the insight they provide to 
the decisions that help shape our country.
    I look forward to hearing from our witnesses testimony on 
not only the mission and future direction of the Presidential 
libraries, but also on the funding aspect. Thank you.
    Mr. Mica. Other Members seek recognition?
    The gentleman from--Mr. Gowdy, he chairs one of the 
subcommittees.
    Mr. Gowdy. Yes, sir, Mr. Chairman. I want to commend you 
and Chairman Issa for this extraordinary hearing and what is, I 
believe, going to be an extraordinary day, given the expertise, 
the amalgamation of experience that we have, I would rather 
hear from the witnesses and hear the questions than hear myself 
talk, so I would yield back.
    Mr. Mica. Thank you so much. Other Members seek 
recognition?
    No other Members seek recognition, then, again, what we 
will do is go to our panel of witnesses and ask Mr. Issa if he 
would introduce the first three witnesses and have them 
recognized. We don't have to swear these folks in today, Mr. 
Issa, I guess normally you do that on your panel.
    Mr. Issa. I think we can waive that since we are in your 
hearing room.
    Mr. Mica. Thank you. You are recognized to recognize the 
panelists.
    Mr. Issa. Thank you, Mr. Chairman.
    Our first witness is Honorable David S. Ferriero, the 
archivist of the United States. And probably the most important 
part of today's hearing really has a great deal to do with how 
the National Archives and Record Administration can, in fact, 
oversee all but one of the people here in their organizations.
    Our second witness is Thomas Putnam, director of the John 
F. Kennedy Presidential Library and Museum. And our third, Mr. 
Duke Blackwood, director of the Ronald Reagan Library and a 
fairly constant host to me when I get up there.
    Mr. Mica. We will start out by recognizing----
    Mr. Issa. You have three more to introduce.
    Mr. Mica. I will catch those when we get to them. We will 
have the first three give their testimony. We try to limit you 
to 5 minutes. If you have a lengthy statement or anything you 
would like to have included in the record, that will be made a 
part of the proceedings today. First, we will recognize Mr. 
Ferriero.


 TESTIMONY OF HON. DAVID S. FERRIERO, ARCHIVIST OF THE UNITED 
 STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; THOMAS 
  PUTNAM, DIRECTOR, JOHN F. KENNEDY PRESIDENTIAL LIBRARY AND 
 MUSEUM; DUKE BLACKWOOD, DIRECTOR, RONALD REAGAN PRESIDENTIAL 
  LIBRARY; THOMAS SCHWARTZ, ILLINOIS STATE HISTORIAN, ABRAHAM 
     LINCOLN PRESIDENTIAL LIBRARY AND MUSEUM; ANNA ELEANOR 
ROOSEVELT, CHAIR, BOARD OF DIRECTORS, THE ROOSEVELT INSTITUTE; 
         AND MARTHA KUMAR, PROFESSOR, TOWSON UNIVERSITY

    Mr. Issa. By the way, if David asks to have something put 
in the record, make sure it is not all of his archives, that 
could be over our limit.
    Mr. Mica. We will make note of that, thank you. And you are 
recognized, welcome, sir.
    Mr. Ferriero. Chairman Mica, Chairman Issa, and members of 
the committees, I appreciate the opportunity to testify before 
you today on the important role of the Presidential libraries, 
both to the Nation and to their local communities. Presidential 
libraries preserve, interpret and present the history of 
American democracy in the 20th and 21st centuries, through the 
words and deeds of our government. And these libraries are 
among the country's finest examples of public archives offering 
research rooms, interactive museums and education centers to 
millions of researchers, students and visitors each year.
    President Franklin D. Roosevelt's vision for his library 
created a process that has been followed by each succeeding 
President. He established a private foundation to raise funds 
for the construction of the library building that was then 
donated to the National Archives.
    Each library is supported by the Federal Government, and in 
part by a Presidential foundation. Situated around the country, 
Presidential libraries reflect and enrich their local 
communities. They offer exceptional research facilities that 
are hailed for the personal service they provide to students 
and scholars. Each museum tells a unique story concerning the 
life and times of a 20th century, and soon, a 21st century 
President in the pivotal moments in history they faced.
    The libraries' extensive outreach to teachers and students 
is a powerful vehicle for civic engagement. As you know, 100 
percent of all initial construction funding for the libraries, 
including the initial museum exhibit, comes from non-Federal 
sources, the majority of which are private donations through 
the Presidential foundations, or their predecessor 
organizations.
    The construction of Presidential libraries serves as an 
engine of economic growth in regional areas, revitalizing 
communities and guaranteeing continued revenue streams for 
millions of national and international tourists. Local Chambers 
of Commerce or State tourism boards estimate that each visitor 
to the library spends an additional $100 to $200 depending on 
the community, during the visit at local restaurants and 
hotels. Thus, with nearly 2 million visitors visiting our 
museums in 2010, the support to the community is significant; 
$15 million added to the economy in Abilene, Kansas; $43 
million in Boston; $55 million in Austin, Texas.
    Equally important is the educational and cultural impact 
Presidential libraries have on their communities. Over 500,000 
people attended cultural programming conferences and various 
speaker series of the libraries in 2010, where the country's 
first, finest historians, political leaders, journalists and 
biographers came to locales where they would not typically 
speak.
    Moreover, the libraries provided educational programs for 
350,000 students and 5,000 teachers. At a hearing last year at 
which I testified, there was some concern about the use of 
resources for educational and cultural programs. As I said at 
that hearing, the problem of civic literacy is real, access to 
public records is a part of the solution to that problem, and 
no one is better positioned to provide access to public records 
than institutions like the National Archives. I would add the 
13 Presidential libraries and 12 regional archives programs 
across the country.
    One of the greatest challenges at the National Archives is 
the backlog we experience in processing many millions of pages 
of records so that those records can be accessible to the 
public. Several of our libraries have over 90 percent of their 
collections processed. Our most significant backlogs are in the 
Presidential Records Act Libraries, Reagan through Bush 43. In 
2009, Congress approved funds for 25 new archival positions for 
the 4 libraries with records controlled by the Presidential 
Records Act. These newly hired archivists are a remarkably 
talented group trained on processing Presidential records, and 
along with other streamlining measures, are beginning to make a 
real difference in the volume of records processed. We expect 
this year to increase our processing by a least 1.3 million 
additional pages and more in future years as these new 
archivists complete their training.
    Presidential library foundations provide the funding for 
museum education and public programs, Web sites, archives 
support and digitization, marketing and other initiatives. 
These contributions have allowed the Presidential libraries to 
be leaders and innovators in the National Archives and beyond. 
Let me provide a few examples. The Presidential libraries were 
among the first public archives and the first of the National 
Archives to develop interactive Web sites and online document 
based educational programming. The Presidential decisionmaking 
classroom pioneered at the Truman Library is now a featured 
part of the education programs in several libraries and served 
as a model for our education programs here in Washington.
    The Presidential timeline created through support of the 
Johnson Foundation in a partnership with the University of 
Texas Learning Center and all of the Presidential libraries is 
an innovative teacher/students resource for digital assets 
reflecting the life and administration of each of the 
Presidents.
    Because of the foundation funding, the Clinton Presidential 
Library became the Federal Government's first existing building 
to be certified at the LEED platinum level. The George W. Bush 
Library will be built to LEED platinum level as well.
    In addition to their ongoing annual support for the 
libraries, the foundations have contributed tens of millions of 
dollars to renovate our permanent museum exhibits; the Hoover, 
Roosevelt, Truman, Kennedy, Johnson, Ford, Carter, Reagan and 
both Bush Libraries have recently completed new permanent 
exhibits or are in the planning stage for a new exhibit.
    I am supported in this partnership by my advisory committee 
on the Presidential Library Foundation Partnership. This 
committee is made up of representatives of the various 
Presidential library foundations. Through these meetings, the 
public private partnership can work to leverage our strengths 
and resources and resolve, or at least understand, how 
differences on our mission can sometimes strain our 
relationships.
    I meet with this committee at least twice a year to discuss 
and ask their advice on the activities of the National 
Archives, our strategic plans and vision, collaborative 
activities, funding and legal issues that can affect the public 
private partnership.
    The Presidency is the one office elected by all Americans. 
Through their geographic disbursements, the Presidential 
libraries are a positive force contributing to diverse 
communities, making history transparent and strengthening the 
civic fiber of our Nation.
    While I continue to believe in the importance of 
Presidential libraries, it is my belief that technology will 
impact future Presidential libraries. The size of digital 
collections at the Clinton and Bush 43 Libraries is far greater 
than the paper records. In the near future we can expect that a 
Presidential library's collection will be mostly digital. Those 
documents acted on in a paper format will probably be digitized 
by the White House and only those documents of significant 
intrinsic value will be saved in their original format, such as 
documents annotated by the President, correspondence with world 
leaders and decision memoranda.
    Long-term preservation and storage of digital records is a 
delicate but worthwhile option. Nonetheless, I believe 
Presidents in the future should continue to establish a 
Presidential library if they wish to do so. Some collections 
may well be digital, but it is the curators, and archivists and 
educators who work in these libraries that make the collections 
accessible to all of our students and citizens. Thank you for 
this opportunity to testify, and I look forward to your 
questions.
    Mr. Issa. Thank you.
    Mr. Mica. Mr. Putnam.
    Mr. Putnam. Chairman Mica, Chairman Issa and members of the 
committee, I am Tom Putnam, director of the John F. Kennedy 
Presidential Library and Museum. I appreciate the opportunity 
to testify on behalf of my fellow library directors. We are so 
pleased that you have called this hearing and are honored to 
appear before you, along with David Ferriero, fellow 
historians, and especially Anna Eleanor Roosevelt. Those of us 
who work in the Presidential library system are indebted to her 
grandfather's vision, which led to the creation of the first 
Presidential library.
    Franklin Roosevelt encouraged the country not to be fearful 
as he launched his Presidency. During which, over time, we 
became the leader of the free world. Reflective of his 
infectious self-confidence, he valued transparency as an 
essential of democratic government. Citizens must understand 
how their government works and have access to the documents 
that define their past.
    With the recent addition of the Nixon and George W. Bush 
Libraries, our Presidential library system, representing our 13 
most recent former Presidents, is made whole and has become a 
model for the world.
    Presidential libraries hold the memory of our Nation, they 
are unique repositories that allow researchers and museum 
visitors an opportunity to relive the events that have shaped 
us as a people. Their educational programs create a more active 
and informed citizenry. I believe the current model works well 
and provides immeasurable benefits to our Nation.
    We rest on four pillars: First, the private funds that are 
used to construct these buildings; second, the Federal funds 
that operate, maintain and administer them; third, the private 
support we receive from our respective library foundations; and 
finally, the revenue streams from our museums and related 
enterprises.
    One of the strengths of the present system is that it 
strikes the right balance between centralization and 
decentralization. Each library is built in a location 
determined by the President and his family. When visiting them, 
one is immersed in locales, like Independence, Abilene, Grand 
Rapids, in which our Presidents lived and matured politically. 
Yet we are also guided by standards set by the National 
Archives that ensure our holdings are protected, our museums 
objective and our access universal.
    Over the years, there have been calls to centralize the 
Presidential library system. In 1962, President Kennedy was 
asked if he would locate his library in Washington, DC. He made 
two points in his reply. First, he stated that through the use 
of technology, it would eventually not matter where a library 
was located. The Kennedy Library recently made JFK's vision a 
reality by digitizing over 300,000 of the most important 
documents and photographs of his Presidency, and audio and 
video recordings of all his speeches and press conferences, 
providing worldwide access to them via our Web site.
    Second, JFK replied in 1962, that by locating these 
institutions throughout the country, each could serve as a 
vital education center connecting the residence of that region 
to their national government. In addition to our robust local 
planning, Presidential libraries often collaborate on 
initiatives like national issue forums, global traveling 
exhibits, nationally televised conference and interactive Web-
based timelines.
    Here, students can not only watch the iconic speeches of 
President Kennedy and Reagan at the Berlin Wall, they can also 
learn of the quiet diplomacy President George Herbert Walker 
Bush engaged in after the Wall fell in uniting that divided 
land. And view President Clinton reciting his favorite line 
from JFK's speech in Berlin, ``Freedom has many difficulties, 
and democracy is not perfect, but we never had to put up a wall 
to keep our people in.''
    I would not be honest, Mr. Chairman, if I did not admit 
that the Presidential library system, like our democracy, is 
not perfect. I would like to conclude with two examples of the 
difficulties we face. The first is the question of the 
sustainability of the current model and the need to encourage 
innovation and entrepreneurship as the Presidential library 
system ages and grows.
    The second is how we meet the need of releasing and opening 
materials as quickly as possible while also protecting national 
security interests.
    Ours is a young country with fewer coliseums and cathedrals 
than our European forebears. Sites which, like others, I 
visited as a college student, trying to understand the world my 
generation inherited and how we might make our mark upon it. 
This is the potency of Presidential libraries in our land, 
serving as beacons to the world, shedding light on both the 
genius and shortcomings of our history during what has been 
called the American century.
    Today, young people from all corners of the globe come to 
the Kennedy Library in Boston. They have often already visited 
the battlefields of Lexington and Concord. In our museum they 
then listen to JFK's inaugural address in which he states, ``We 
are heirs of that first revolution and the belief for which our 
forebears fought are still at issue around the globe.'' My 
colleagues and I feel privileged to share the story of John F. 
Kennedy in his 1,000 days as President, with students from 
Binghamton to Beijing, Daytona to Dakar, as they seek to 
understand the history of our Nation and our world and look to 
make their mark upon it. This is why we undertake to preserve 
and provide access to these priceless historical treasures, for 
their ability to unite us as a country and a people, and to 
serve as the foundation on which new generations will self-
confidently build our future.
    Mr. Issa. Thank you. That is as close to a perfect finish 
as I have ever seen in a committee.
    Mr. Blackwood, next, you know the challenge, 5 minutes.
    Mr. Blackwood. Tough act to follow. Chairman Mica, Chairman 
Issa, members of the committee, I appreciate the opportunity to 
be here today. When Franklin Roosevelt established the first 
Presidential library, I am not sure even he envisioned how 
transformational they would become. His library and 12 others 
that have followed have had unparalleled impact on tens of 
millions of people. What he did for our country, our citizens, 
and most importantly, our school children, continues to pay 
dividends. Today I will address the impact of Presidential 
libraries and why they should continue as they are. I will 
argue that our mission should be multifaceted. Ultimately, 
though, everything starts with access and the definition of 
access should be expanded.
    Over the years, Presidential libraries have grown, changed 
and adapted. This growth is due in good measure to the support 
we receive from our attendant foundations. Working closely with 
the Reagan Foundation, the current library is working well and 
is a successful public/private partnership. The Foundation 
support allows us to better serve the public. The Reagan 
Foundation provides hundreds of thousands of dollars in annual 
support and more than $50 million in capital improvements. This 
is on top of the $69 million that they provided to build the 
library.
    This support has had tremendous impact on three key areas: 
More than doubling our attendance, expansion of education 
programs, and heightened awareness of our facilities. The 
Federal Government's involvement and support is also critical. 
NARA successfully leverages the Foundation's support providing 
tremendous value for the government and the American people. 
With that support, we serve many constituencies broadly 
categorized into three groups: Citizens, students and scholars. 
Providing scholars access to the collection is critical. If 
there is one criticism, it would be that they want more 
material sooner and I would concur.
    At the Reagan Library, our archives team has improved 
efficiencies, set new standards and even though we are 
processing more than 1.5 million documents with shorter queue 
times, the research community clamors for more.
    Let's look at the impact of the use of our materials, a 
single scholar might publish multiple articles, books or blog 
entries that will reach hundreds, thousands, perhaps millions 
of people. Should we just digitize everything then? Not so 
fast, there are practical concerns of funding, staffing and 
processing time. Access through technology is one critical area 
that needs serious attention and significant investment.
    Why not just centralize? Tom presented a very strong case 
why Presidential libraries should continue to grace different 
locations. I agree and would vigorously argue against 
centralization. While it is critical to move toward a goal of 
digitization, we cannot lose sight of working with the original 
materials. Historic documents can inspire, motivate and cause 
to you think differently. When you hold President Reagan's 
personal diary and you read, ``getting shot hurts,'' or leaf 
through the Day in Infamy speech, it puts the researcher in a 
different frame of mind that can lead to new thinking.
    Access is more than just about the materials. Presidential 
libraries offer unique educational opportunities for hundreds 
of thousands of students across the country. So, is access 
important to them? Archival access is not necessarily a 
priority for my daughter Abby's sixth grade class, but access 
to the museum, the curriculum and the amazing Air Force One 
Discovery Center certainly is. Abby's class and thousands like 
hers want and deserve access to these opportunities.
    So, should education be a part of our mission? Absolutely. 
Students represent the future, and learning about our history, 
the Presidency, and civic engagement is critical for informed 
citizenry. Presidential libraries are often an important avenue 
to access learning. At the Reagan Library our approach is 
simple, the three E's, excite, engage and you will educate, 
that is what Presidential libraries do.
    Out last constituency is the millions of citizens who visit 
us, they tour our museums, study our materials, attend our 
remarkable programs, and they too learn, all of which are 
different forms of access.
    So what is our mission? And what should the future bring? 
In summary, Presidential libraries are repositories of 
historical materials, tourist destinations, museum gathering 
places for civic literacy debate, and educational institutions 
and places where communities learn. Our mission should reflect 
this diversity.
    Let's embrace President Roosevelt's vision and broaden it 
to the multifaceted definition of access. Furthermore, we need 
to be proactive with the use of technology. Presidential 
libraries are a unique institution that cause us to think, 
offer to look at, and perhaps question our government, help 
educate and provide exciting opportunities for millions of 
people. I believe strongly they are vital.
    Mr. Mica. Thank you.
    The three beginning witnesses. Let me now introduce the 
three remaining panelists. We have first Dr. Thomas Schwartz, 
and Dr. Schwartz is the Illinois State Historian, he is 
involved with the Abraham Lincoln Presidential Library and 
Museum, and that is sort of a hybrid, it is not federally 
funded as far as its operation by but the State and private 
foundation, I believe. And he will explain their operations and 
their relationship with the Federal Government. And I think 
they get a little Federal money toward some of their recent 
projects.
    Then we are honored to have Anna Eleanor Roosevelt, and she 
chairs the Board of Directors of the Roosevelt Institute. It is 
quite fitting that we have one of the family members who has 
been actively engaged with the Presidential library, and that 
also being the first of our libraries. And then we have Dr. 
Martha Kumar. She is a professor at Towson University, and also 
a distinguished, recognized Presidential historian and author. 
She is going to sum it all up for us, we will hear from her in 
just a second.
    Let me recognize Dr. Thomas Schwartz again, the Illinois 
State Historian and with the Abraham Lincoln Presidential 
Library and Museum. Welcome, sir, and you are recognized.
    Mr. Schwartz. Thank you. Chairman Mica, Chairman Issa and 
members of the committee, I thank you for the opportunity to 
testify on the mission and future direction of Presidential 
libraries. My comments will focus on the Abraham Lincoln 
Presidential Library and Museum, its current relationship to 
the National Archives and Records Administration, Presidential 
Library Museum System and, possible areas for further 
collaborations. This mirrors Abraham Lincoln's thinking when he 
declared, ``if we could first know where we are and whether we 
are attending, we can then better judge what to do and how to 
do it.''
    The Abraham Lincoln Presidential Library was created in 
1889 as the Illinois State Historical Library. Its mission was 
to collect the written history of the State of Illinois, an 
effort that also lead to sizable holdings concerning its 
favorite son, Abraham Lincoln. Discussions since the 1980s on 
how to build a new facility for the library moved toward the 
larger concept of the library museum complex.
    A Federal, State, and local funding partnership was formed 
to finance a $167 million complex, most of that provided by the 
State of Illinois. The library with its new name, opened in 
October 2004 and the museum opened on April 19, 2005.
    Of a fiscal year 2011 budget of $12 million, the State of 
Illinois provides the largest source of revenue, with 
additional revenue streams provided by admission sales, parking 
and facility rental and the support of the 501(c)(3) Abraham 
Lincoln Presidential Library Foundation. The ALPLM, has a staff 
of 66 full-time, 14 part-time, and more than 500 volunteers to 
maintain a 215,000 square foot complex under the administrative 
authority of the Illinois Historic Preservation Agency.
    With a total visitation of more than 2.5 million people 
from more than 100 nations since opening in 2005, the ALPLM has 
had annual attendance that surpasses any NARA Presidential 
museum. Our programs range from temporary exhibits that have 
explored topics such as Lincoln's assassination, his views on 
agriculture, his actions as President-Elect, to author talks, 
historically-based theater offerings, teacher workshops, 
activities for young children, and conferences and symposia on 
Lincoln, slavery, and his times.
    Perhaps our most ambitious project is the Papers of Abraham 
Lincoln. Begun in 1985, this project has compiled, and in 2009, 
placed online, all of Abraham Lincoln's legal documents by 
case, and issued four-volume print edition of selections from 
his legal practice. Currently the project is scanning every 
letter sent to Lincoln and every document he wrote, with the 
goal of placing the entire corpus of Lincoln's writings online. 
We hope to have the pre-Presidential materials up 2013 and the 
entire project completed by the end of this decade.
    Our interactions with the NARA libraries and museums have 
been few but friendly. Most requests are for the loan of 
Lincoln materials for special exhibits, several non-Federal 
Presidential museums are being contemplated and want to be 
added to the NARA system have sent planning teams to see the 
ALPLM and imagine how its elements might be incorporated into 
their facilities.
    The ALPLM is known for being different from traditional 
museums, with its emphasis on a compelling narrative of 
Lincoln's life, supported by creative uses of technology, and 
immersive environments that actually place you within scenes of 
Lincoln's life. All of the senses are engaged and the 
interactivity the visitor discovers is not that created by 
technology, but rather intellectual and emotional engagement he 
or she feels with the unfolding story of Lincoln's life.
    These techniques inspired the Mount Vernon Ladies 
Association, for example, to incorporate many of them into 
their new orientation center and museum.
    Everyone in this room acknowledges the importance of 
Presidential libraries and museums as vital to preserving our 
national history while providing the general public with a 
broader and deeper understanding of our past. Moving forward, 
we see several areas of cooperation to consider. One, sharing 
resources through the traditional loan of materials, 
digitization of collections, and extending both to joint 
exhibits with one or more Presidential museum partners.
    Two, linking to one another's Web site using satellite 
uplink to offer joint programs, and providing comparative study 
and curriculum materials to encourage the public to explore the 
entirety of our Presidential history and not simply that of one 
administration.
    Three, continuing the larger dialogue with Presidential 
museums outside the NARA systems on issues common to all.
    Finally, striving to be entrepreneurial in finding creative 
funding solutions to the long-term solvency issues facing all 
Presidential libraries and museums. As Lincoln aptly reminds 
us, ``the struggle of today is not all together for today. It 
is for a vast future also.'' Thank you.
    Mr. Mica. Thank you so much for your testimony and let me 
recognize now, welcome, Anna Eleanor Roosevelt, welcome.
    Ms. Roosevelt. Chairman Mica, Chairman Issa.
    Mr. Mica. You may not be on there. Pull it up real close.
    Ms. Roosevelt. OK. Chairman Mica, Chairman Issa, Ms. North, 
Mr. Cummings, members of the committees, thank you for the 
opportunity to testify before you today. My name is Anna 
Eleanor Roosevelt, and I am chair of the Board of the Directors 
of the Roosevelt Institute, which is the non profit partner to 
the FDR Presidential Library and Museum in Hyde Park, New York.
    I have been a member of the Roosevelt Institute Board for 
more than 30 years, and I have been board chair for a little 
more than a year now. In my professional life, I am the head of 
global corporate citizenship for the Boeing Company and serve 
as the company's representative on the board of the National 
Archives Foundation.
    The FDR Presidential Library and Museum is the Nation's 
first Presidential library. Prior to Franklin D. Roosevelt's 
decision to build the library in Hyde Park, the final 
disposition of Presidential papers was left to chance, and much 
of that historical record has sadly been lost.
    President Roosevelt created an institution to preserve 
intact all his papers and related materials so that the Nation 
could make use of the knowledge and experience contained there. 
The library's holdings include my grandfather's personal and 
family papers, the papers covering his public career at the 
State and national level. My grandmother's papers, as well as 
those of many of their friends and associates. It is a treasure 
trove of material that captures one of the most important eras 
in American history, the Great Depression, and World War II, 
from many perspectives and directions.
    My grandfather, as you may know, was a great collector of 
birds, ship models, stamps, books, documents and many other 
items. He once recounted, after being elected to be the 
librarian of the Hasty Pudding Club at Harvard, some advice he 
was given by an old book seller, never destroy anything. Much 
to my family's chagrin, my grandfather heeded that advice and 
kept everything. The result, as he himself put it, is that we 
have a mind for which future historians will curse me as well 
as praise me.
    FDR wanted to give these materials to the people of the 
United States and house them in an archive and museum built 
with private funds, but maintained by the Federal Government. 
He felt it was important to keep all of his papers and 
artifacts together in a single collection. He also felt it was 
important that future generations who wish to understand him 
and his Presidency should come to Hyde Park, to the community 
and home that helped shape him and meant so much to him high on 
the bluff above the Hudson River.
    Fully expecting to retire in 1940, work on the library 
began in 1938, but with the outbreak of World War II, my 
grandfather's plans for retirement had to be cast aside. Work 
on the library nevertheless went ahead as planned and it was 
open to the public on June 30, 1941, at the very time when most 
of Europe was suffering under the cruel dictates of fascist 
oppressions. Taking note of this, my grandfather used the 
opening as an opportunity to remind the American people of how 
important history and the free access to information are to 
democracy.
    This latest addition to our Nation's archives, he said, is 
being dedicated at a moment with the government by the people 
themselves is being attacked everywhere. It is therefore proof, 
if any proof is needed, that our confidence in the future of 
democracy has not diminished in this Nation and will not 
diminish.
    And he went on, the dedication of a library is in itself an 
act of faith, to bring together the records of the past and 
preserve them for the use of men and women living in the 
future, a Nation must believe in three things: It must believe 
in the past; it must believe in the future; and it must, above 
all, believe in the capacity of its people so to learn from the 
past that they can gain in judgment for the creation of the 
future.
    As planned, the library was built with privately donated 
funds at the cost of $376,000, raised by a committee that was 
headed by a Republican, Waldo G. Leland. It was then turned 
over to the Federal Government on July 4, 1940, to be operated 
by the National Archives. By his actions, President Roosevelt 
ensured that his papers would become the property of the 
Nation, housed in a library on the grounds of his Hyde Park 
home also deeded to the Nation upon his death where they would 
be available to scholars. My grandfather's creation served as a 
precedent.
    The Roosevelt Institute supports the library exhibits, its 
outreach and educational activities, and its special programs 
for its wide-ranging audiences. We understand our mission to 
preserve, celebrate and carry forward the legacy and values of 
my grandparents. An important part of that mission is our 
partnership with the FDR Presidential Library. In 2003, the 
Roosevelt Institute joined the National Archives and the 
National Park Service in opening the Henry A. Wallace Visitor 
and Education Center, which served as a joint visitor center 
for the Franklin D. Roosevelt National Historic Site, and the 
Roosevelt Presidential Library, and as a conference and 
education center.
    It is also a valuable community resource used by hundreds 
of nonprofit organizations for meetings and events. The Wallace 
Center was constructed through a unique public/private 
partnership between the National Archives and Records 
Administration, the National Park Service, and the Roosevelt 
Institute, which raised substantial private funding in support 
of this project.
    The Roosevelt Institute supports all four of the library's 
main program areas on an ongoing basis. Archives, museum, 
education and public programs. The library's research 
operations are consistently one the busiest in the entire 
Presidential library system. The library serves thousands of 
on-site researchers and more thousands of researchers who 
contact the library through written requests, mostly via e-
mail.
    The Roosevelt Institute provides grants and aid to 
researchers demonstrating new scholarship in study of the 
Roosevelt era, as well as assisting the library purchasing new 
books for the collection. We are working with the library to 
secure the necessary funding to digitize and make available 
online some of the most important documents in the collection.
    Since the opening of the FDR Library, William J. vanden 
Huevel Special Exhibitions Gallery, in 2003, the Roosevelt 
Institute has provided more than $1 million to support changing 
exhibits in this Gallery, along with enhancements and 
improvements to the library's permanent exhibits. This money 
made it possible for the library to purchase high quality 
exhibit casework for the Special Exhibitions Gallery and to 
present many special exhibits.
    The Institute has also provided over $5 million to create 
an exciting new permanent exhibition at the FDR Library. This 
new exhibition, the first complete renovation of the museums 
permanent exhibition in the library's history, will employ 
state-of-the-art technology to bring the story of Franklin and 
Eleanor Roosevelt to new generations of Americans, it is 
scheduled to open in 2013.
    The Roosevelt Presidential Library offers document-based, 
curriculum-centered education programs for students ranging 
from the second grade to post graduate level, including the 
United States Military Academy at West Point. The library 
conducts teacher workshops each year attended by hundreds of 
teachers from across the United States, and from more than half 
a dozen countries. There is only one full-time education 
specialist who is provided by the government. The Roosevelt 
Institute provides the remaining support to the Roosevelt 
Presidential Library's education department annually. This 
support is critical to the operation of the library's education 
department as it provides the funds to hire four part-time New 
York State certified retired teachers, and one part-time 
education clerk, and to produce quality education materials 
that are used by students and teachers in the Hudson Valley, 
the Tri-State area, and across the United States.
    Public programs and community outreach are at the core of 
the library's mission. The library offers a host of innovative 
programs and events to the general public each year.
    In sum, the work of the FDR Presidential Library and 
Museum, and of Presidential libraries generally is critically 
important for retaining and advancing the public's 
understanding of the Nation's history, and for making that 
history available in communities across the country, 
communities from which our Presidents have come. The FDR 
Library and each of 12 other Presidential libraries tell the 
stories of the eras in which their President's lived and the 
persons who rose to leadership within them. They make these 
stories available to thousands of Americans who do not have the 
opportunity to come to Washington, DC, and to the National 
Archives on a regular basis.
    It is important to remember, as my grandfather truly 
believed, that these investments are not support for 
memorializing specific individuals so much as they are 
investments that preserve, protect, and promote the broader 
scope of the history of this country, all of the dimensions of 
that history, the good and the bad, the successes and the 
challenges.
    As such, and with all that we can learn from the many 
generations of Americans who have gone before us, the support 
that the Federal Government provides the Presidential libraries 
represents an investment not in our past but in our future.
    I thank the committee for the opportunity to testify here 
today.
    Mr. Mica. Thank you again for your testimony; and now we 
will recognize our last witness, our historian and Presidential 
scholar, Dr. Kumar.
    Welcome, and you are recognized.
    Ms. Kumar. Chairman Mica and Chairman Issa, Ranking Member 
Norton, Ranking Member Cummings, and members of the committee, 
thank you for the opportunity to discuss Presidential libraries 
and their importance to students, scholars, and government 
officials.
    As preparation for my testimony, I wrote political 
scientists who specialize in the Presidency and asked them how 
their students use Presidential libraries and in their work as 
Presidency scholars what difference Presidential libraries make 
to their research. The responses came from all over the country 
and even from Canada with a uniform refrain of how important 
Presidential libraries have become for those of us who examine 
executive leadership, as well as those studying individual 
Presidents.
    My informal survey established several points about the use 
and importance of Presidential libraries to students and 
scholars alike.
    First, Presidential libraries are a national and regional 
resource for those studying the operations of government and 
individual Presidents. Having the libraries located in nine 
States and most regions of the country has brought the 
Presidency to the public. The libraries have become a valuable 
part of many undergraduate and graduate programs and allowed 
students to open a window on the Presidency without traveling 
to Washington.
    Students nationwide can afford to travel to one or more of 
these libraries and have rich experiences. For one professor, a 
charter bus trip to the Truman Library means having his 
students consider the Berlin Airlift and the decision to drop 
the atomic bomb.
    Scholars depend on Presidential libraries as a key resource 
for their own writing. The Presidency section of the American 
Political Science Association has an annual award for the best 
book on the Presidency. In reviewing the winners for the 20 
years that the prize has been given, at least 75 percent of the 
books draw heavily on Presidential library materials.
    Presidential libraries are a resource as well for those in 
government. The 9/11 Commission made heavy use of Presidential 
library materials. In recent Supreme Court nomination hearings, 
the Senate Judiciary Committee members and staff reviewed 
Presidential library files to see what actions and 
recommendations John Roberts and Elana Kagan had in their 
service in the Reagan and Clinton White Houses. White House 
staff in all recent administrations have called up materials 
from Presidential libraries.
    As successful as a library visit to the faculty I polled 
are, the professors singled out the archivist as the key to the 
success of their trips to the libraries. With millions of 
records in each library, sifting through for relevant material 
is a challenge for researchers. The archivists fill in this 
gap.
    Second, Presidential libraries are important to what we 
know about the Presidency as an institution and about 
individual Presidents. Materials in the library allow us to 
test common assumptions we have about the Presidency, how it 
operates, and what particular Presidents did while they were in 
office.
    The President's daily diary, many of which are available 
online, track the minute-by-minute movements of a President 
from one room to another. The diary records who was in meetings 
and when they come and go. Through such careful tracking, we 
know who was with a President when he was considering 
particular policies, and we have the documentary records 
preserved as well. One professor used the daily diaries to test 
the idea that President Reagan had relatively short workdays by 
comparing the length of the workday of several recent 
Presidents. It came out that President Reagan worked a similar 
workday to Presidents Johnson and Nixon and a longer one than 
Presidents Kennedy and Eisenhower.
    Audio recordings of meetings are also valuable for 
understanding important decisions and how they played out, as 
one can see in the recordings of President Kennedy's meetings 
on the Cuban missile crisis which are in audio.
    Third, cooperative ventures can be an aspect of the model 
for future libraries. There are many ways in which Presidential 
libraries can work together with those studying Presidential 
action. In some cases, there are groups beyond the library 
foundations that provide funds for researchers to travel to one 
or more libraries. Students, too, can work as interns or in 
work-study programs to provide needed work in appropriate areas 
in the library.
    An example of a cooperative venture between scholars and 
Presidential libraries is the White House Interview Program. 
The program is built around interviews with key former White 
House officials to help prepare those coming into the White 
House in 2001. The materials were also used in 2009. The 
interviews are housed at individual libraries, with many of 
them available online. The project demonstrates what is good 
for scholars can be also good for those coming into the 
government and for Presidential libraries. Everyone benefits 
when people--students, scholars, and the public--learn about 
their government and its leaders.
    Mr. Mica. Well, thank you for your testimony. I want to 
thank all of our witnesses.
    Again, I think this is a rather historic joint hearing 
between two committees and the first time that we have 
approached the subject in this manner, again, the important 
mission of our Presidential libraries and their current status.
    What we will do is start with a little round of questions, 
and I want to ask our Archivist a couple to start.
    Right now, a big question in Washington is spending and 
national finances. You don't have a huge budget for the 
libraries, but I see approximately $77 million is the fiscal 
year 2010 estimated cost; is that correct?
    Mr. Ferriero. $76.2 million.
    Mr. Mica. OK. And, of that, it looks like operational 
costs, operations, and maintenance is $27 million; programs, 
$35 million; and I guess some of the renovation costs were 
about $9 or $10 million.
    I had the opportunity to visit the Kennedy Library, and I 
don't think this was planned for my visit, but they had a big 
bucket--and it is a beautiful atrium, but there is a big bucket 
and water coming down, and they assured me that they had 
renovation and repairs under way. Do we have a capital program 
for all of these libraries? And I guess the submission goes 
through you on initial approval; is that correct?
    Mr. Ferriero. That is correct.
    Let me preface my answer by a story about the Kennedy 
library.
    I.M. Pei was the architect, and I was there at the opening, 
and that atrium sitting out there on the water, a visitor came 
up to I.M. Pei and said, aren't you afraid it is going to leak? 
And he said, of course, it is going to leak. An architect.
    We have a repair and renovation budget within the National 
Archives, and we have a master plan--space master plan that 
identifies all the needs across all 12 of the facilities, soon-
to-be 13 facilities, with an estimate of expenditure each year. 
That will be severely reduced in the coming year.
    Mr. Mica. One of the other things I noticed, I was quite 
shocked to see that all the exhibits in all the libraries are 
remarkable, but I was really a bit surprised to see the 
condition--sort of an aged condition of the Kennedy exhibit. In 
fact, I mentioned to Caroline Kennedy and to our departing 
Representative, Patrick Kennedy, the need to update some of 
those. Do we have a schedule for updating some of those 
exhibits?
    Mr. Ferriero. There is a big focus, especially at Kennedy, 
on digital activities, to get as much content out into people's 
hands around the country first, but there is also planning 
around updating the current exhibit space.
    Mr. Mica. I heard Ms. Roosevelt talk about that, and I am 
not sure the staged--does anyone look at, again, the overall 
picture of putting some of this incredible information on 
digital or using the latest technology in all of these 
libraries?
    Mr. Ferriero. Every one of the Presidential libraries has 
been investigating, has done something in the area of 
digitalization and long-term planning for as much content as we 
can afford.
    Mr. Mica. Back to the financing, I understand different 
libraries have foundations, and they are supported. Is there 
any estimate you could give to us as to what additional funds 
are provided or what percentage of additional programs are 
underwritten by the private sector?
    Mr. Ferriero. I can get you that figure. I don't have it 
off the top of my head. I think it is safe to say that each one 
of the Presidential libraries is pretty creative, innovative, 
and entrepreneurial in identifying private support for a number 
of their activities.
    Mr. Mica. I notice, too, that I was looking at the 
admissions and the activity from visitors for the different 
libraries. It seems to taper off, again, as the Presidents fade 
into history. That leaves, again, a bigger burden on the 
Federal Government to underwrite the operations. And, also, I 
notice that with some of the libraries that the Department of 
Interior is involved. Their costs and figures are not included 
in your budget. Again, do we look at the overall long-term 
mission, the reduction in admissions, and then contributions 
from other agencies?
    Mr. Ferriero. That is certainly something that is in my 
consciousness. And you are right. There is a relationship 
between the date of the Presidency and the attendance. On the 
Park Service collaboration, those sites where we have the 
homestead, that is where there is a history of a Park Service 
involvement in the site.
    Mr. Mica. OK. Then we have Mr. Schwartz. I had an 
opportunity to visit there in Illinois, and that is a private 
State operation. I also was informed the Federal Government had 
promised some help on the capital side and only met about half 
of its contribution. Maybe you could tell us how you are funded 
and how Federal commitment, unkept, affects your operation and 
your budget.
    Mr. Schwartz. The original funding plan was at the State. 
The two structures came to a total cost of $115 million. That 
was the estimate. And the idea was the State would provide $50 
million, the Federal Government would provide $50 million, and 
the city of Springfield would provide the property and the 
remaining amount. It ended up that the Federal Government came 
forward not with the grant fully funded but a matching plan; 
and so State regulations require, for a construction project, 
that all the money is to be in place before construction 
begins. The State actually had to then finance the full amount, 
and of that $50 million match over 5 years we were able to 
recoup about $35 million.
    Mr. Mica. Ms. Roosevelt, you had mentioned that you are in 
the process of digitizing some of the records. Is that also 
with Federal help or is that a private activity, and where do 
you see the Federal Government helping you in the future, again 
as far as protecting some of these national assets and 
treasures?
    Ms. Roosevelt. Well, that particular project I would have 
to refer to our librarian to make sure, but I know that 
whenever the library has a program need, we are partners with 
them and we work with them to discover what is the need to 
produce the result that is best for the library program. And so 
we often do co-funding on projects, and I would assume that 
that would be part of the digitizing project.
    Mr. Mica. Finally, have any of you worked with the Library 
of Congress or you have joint efforts going on with the Library 
of Congress?
    Yes, Mr. Schwartz, and maybe you could tell us that 
relationship.
    Mr. Schwartz. The Papers of Abraham Lincoln right now, the 
last two major repositories of Lincoln's papers that we need to 
scan, are those at the Library of Congress and the National 
Archives. We have finished the scanning of the collections out 
at Archives II, and we are now in the main Archives, and we are 
at the Library of Congress. I think we hope to wrap up both 
those scanning projects in the next few years.
    Mr. Mica. OK. At noontime or when we recess, we will hear 
from the Librarian of Congress; and this afternoon some of the 
questions that we can't get to with the members of the panel 
and other directors and those active with some of the other 
Presidential libraries that have joined us today we will have 
an opportunity. So if you think of a question or we can get 
more to the answer, I saw from Ms. Roosevelt in that symposium 
that starts this afternoon.
    So, with that, let me yield to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Ferriero, I have a question for you. You are, of 
course, aware as a Federal agency that we are in the midst of 
making large cuts in Federal agencies. We have to make many of 
them.
    In your testimony, you noted that the Clinton Library is 
platinum LEED and that the Bush Library is also expected to be 
platinum LEED; and, of course, in our committee we promote this 
because of the enormous savings that can be documented. In this 
case, the savings would be to the taxpayers. Have you advised 
or do you think it would be important to advise those who build 
these libraries, in light of the fact that the operations are 
paid by the taxpayers of the United States, that these 
libraries should be built to the highest LEED standards 
available?
    Mr. Ferriero. I certainly would agree to that, and I would 
suggest that any future library that we build will be built to 
those specifications.
    Ms. Norton. Thank you very much.
    Again, a question going to the need to make savings, 
particularly in the year or two headed, there was great concern 
here about savings. However, even the deficit commission warned 
about doing cuts that were too stringent this year and advised 
to wait a couple of years lest we send the fragile economy 
back. So people like me are looking for things to cut that meet 
the necessity to cut but that may not have that effect.
    Now, I note in light of the fact that the taxpayers pay for 
the operations, in applying the cuts to the Archives--and let 
me preface this by saying I have sat through hearings where the 
Archivist had raised my very serious concern about the 
underfunding of the Archives and your ability to maintain the 
precious historical papers of the United States. Shouldn't the 
cuts be applied as little as possible to your official work, 
your official documents with perhaps the libraries and their 
operations taking somewhat more of the cuts and so that is 
operations alone?
    If you had to distribute the cuts--and that is who is going 
to have to do it--you cry up here about the maintenance of--and 
well you might--we all should shed tears--about the maintenance 
of this repository. Then you have to decide where the money 
goes. Well, there is some powerful people in the library who 
want their operations just as they are. There are not so many 
powerful people speaking for the papers that you complain you 
don't have the money to upkeep. So how would you distribute 
this funding?
    Mr. Ferriero. Well, I would just remind you that those 
papers that are sitting in those 13 repositories that we call 
Presidential libraries are Federal records, and they are my 
responsibility.
    Ms. Norton. I am asking about the papers sitting right in 
the National Archives.
    Mr. Ferriero. They are part of those records, the Federal 
records and Presidential records.
    Ms. Norton. I am asking about the operations, Mr. Ferriero. 
I want you to answer my question directly. I am not asking 
about the records. I am asking about when you have to apply 
funds to operations and make cuts in operations versus cuts in 
official documents, whether they are, as you say, in 
Presidential libraries or whether they are here in the District 
of Columbia. I would like an answer to my question.
    Mr. Ferriero. And what I am trying to explain is that my 
approach to the cuts treated Presidential records and Federal 
records with the same level of----
    Ms. Norton. Except that wasn't my question. My question was 
cuts in operations versus cuts in records.
    Mr. Ferriero. Those cuts in operations were applied equally 
across Federal records and Presidential records. So the 
restrictions that----
    Ms. Norton. You can't be serious. In the operations of the 
Archives or--well, let's take your own operations. You would 
give as much weight to whether or not there is going to be 
another security guard as you would to maintaining the records 
themselves?
    Mr. Ferriero. Protection of records, whether they are 
Federal records or Presidential records, are equally important.
    Ms. Norton. I am not talking about the difference between 
the two records. I am talking about the operations that the 
taxpayers pay for the Presidential libraries.
    Mr. Ferriero. The taxpayers pay for that security in the 
Presidential libraries.
    Ms. Norton. That is what I am talking about, and they pay 
for other operational matters in the Presidential libraries.
    Mr. Ferriero. That is right.
    Ms. Norton. So I am not talking about the records. I am 
talking about the operations.
    Mr. Ferriero. And I am saying that my approach to security, 
in this particular case security of the collections, whether 
about security guards, would be the same in the Presidential 
library as it would be at 700 Pennsylvania Avenue.
    Ms. Norton. All right. Mr. Ferriero, I see I am not going 
to get an answer to the question. I am not asking about 
security. Operations has to do a with a whole lot more than 
security. I gave you an example of if you had one more guard or 
one less guard, but I would be very concerned if you just were 
to find it as easy to apply funds to operational matters as to 
apply funds to the maintenance of these very important historic 
documents, and I will bear that in mind the next time you come 
before this committee.
    Mr. Blackwood, I note that you were at one time director of 
the Ronald Reagan Presidential Library and were serving 
simultaneously as the executive director of the private Ronald 
Reagan Presidential Library Foundation. Now, there could be 
complications in simultaneously holding these two positions. 
You only hold the Federal position now; is that the case?
    Mr. Blackwood. Correct.
    Ms. Norton. Do you feel more comfortable holding only the 
Federal position inasmuch as you won't have to resolve possible 
conflicts of interest?
    Mr. Blackwood. Yes, I think the current model, the way it 
is with the director serving only in that capacity, is the best 
model.
    Ms. Norton. Now, that is a matter of policy, isn't it, Mr. 
Ferriero?
    Mr. Ferriero. Yes.
    Ms. Norton. Is it a policy that you made or is it a policy 
that a prior Archivist made?
    Mr. Ferriero. It was made prior to my arrival, but it is 
one that I support.
    Ms. Norton. Don't you believe that that should be the 
policy of the government, not only the policy of the Archivist 
who may change from time to time and therefore change the 
policy?
    Mr. Ferriero. It could very well be.
    Ms. Norton. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Let me recognize the co-chair of this joint hearing, Mr. 
Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Ferriero, following up on what the gentlelady from DC 
said, you do have one luxury, I am presuming, and that is, when 
there are cuts in your budget, some of those expenses, if you 
are not able to do them at the 13 Presidential libraries, are 
going to be taken on by the foundation side. So, in some cases, 
there will be no reduction in service, even if you had to trim 
some of your duties, right?
    Mr. Ferriero. In some cases, where there are resources 
available, it is possible.
    Mr. Issa. So that is an inherent benefit to the American 
people, that you can operate fairly austerely there while those 
records are maintained, protected, and, as Ms. Roosevelt said, 
digitized at somebody else's expense, not the Federal 
Government's?
    Mr. Ferriero. The issue is the level of activity that can 
be sustained. We have backlogs in most of those Presidential 
libraries in terms of basic processing.
    Mr. Issa. I am going to go to the luxury of riches for a 
moment.
    Mr. Blackwood, your library is expanding. I had the honor 
of being on the airplane that was delivered just before 
September 11th to the Reagan Library, or at least to the 
airport, and I have now seen it repainted in all its glory, all 
of it basically at no government expense. I think we paid for 
the fuel to fly it out there. But my understanding is we saved 
money because we didn't have to do an annual maintenance on it 
if we delivered it to you that day.
    The Reagan Library is a wealthy library. There is just a 
tremendous amount of support for foundation donations to the 
Reagan Library to continue his legacy. Should we be looking 
from a standpoint of government at spreading that wealth, at 
looking and saying, for the long-term sustainability, not when 
there is 13 but when there are 33 libraries, to have some sort 
of a scheme to make sure that the dollars are available from a 
common foundation or in some other way, a non-direct government 
appropriation, to help make sure these libraries are all 
maintained at a high level?
    And I am going to you first because you are sort of the 
richest library at this particular time, present here today 
perhaps.
    Mr. Blackwood. I don't know if we are the richest, but I am 
very fortunate in the support that the Reagan Foundation has 
provided the Reagan Library because I think it benefits all 
citizens. Whether you visit or come virtually, it is a benefit, 
and I do recall the trip because I was on the plane with you, 
and it is extraordinary.
    But that is a perfect example of what the foundation has 
done. It was $35 million that they support to build the Air 
Force One pavilion. In addition, they maintain it on a regular 
basis. So there is zero cost from the government standpoint on 
that. In addition, there was another $9 million that they 
raised and spent for the Discovery Center, $15 million they 
spent for the recent renovation.
    As it relates to an overall foundation, I think that is a 
concept that should be developed. You would have to go to each 
of the foundations to see what their support might be. Because 
I liken our organizations to a family. We have 13 kids and 
similar, same parents, but different needs and different wants 
and different expectations. So I think it is worthy of looking 
into.
    Mr. Issa. Ms. Roosevelt, perhaps you would be not the 
oldest but the longest standing of the libraries. Your 
grandfather's legacy lives on; and, as a result, there is no 
doubt people who contribute. But do you believe that we have a 
likelihood that the poorer stepchildren of the Presidency will, 
over time, either end up as wards of Federal appropriated 
dollars or simply fall into disrepair?
    Ms. Roosevelt. Well, I can imagine such a situation. 
However, I think that there will always be interested private 
citizens who care about history and who care about its 
preservation. But I do----
    Mr. Issa. That is the reason for my question, ma'am, is if 
we have interested private citizens, what I was speculating on 
is, from this side of the dais, if we want to not rely on 
appropriated funds for X library--none of yours, but let's just 
say X library--should we be looking at a national nonprofit 
entity as an umbrella for contributors who want to contribute 
to the maintenance of Presidential libraries so that stipend 
would be available to wherever it was needed? Recognizing that 
early after a President's Presidency the funding tends to be 
good. In fact, it tends to be really great while he is still in 
office, as it turns out; and that is a separate subject of 
investigation. But then, as time goes on, often the people who 
were in the Cabinet and who were a part of that group that does 
the fund-raising, they pass on. Unless there is somebody like 
you in the family, it becomes very hard--or like Caroline 
Kennedy--to continue their level of fund-raising.
    So my question then would be a question really to everyone 
on the panel sort of sequentially--and it will be my last 
question--is should we on this side of the dais be looking at 
an umbrella organization, recognizing that we can't force these 
contracts to be modified, but we certainly could create the 
equivalent of public broadcasting but public support that was a 
central one that would be available? Because I, for one, assume 
that taxpayers are not going to be any more willing in the 
future to appropriate than they are today, and yet your needs 
will continue to increase.
    So that is really the question for each of you that--
starting actually with Martha, each of you that have looked at 
this problem that will go on for 200 more years of our history. 
Please, Doctor.
    Ms. Kumar. For political scientists, we are politically 
interested in comparative research. So for us going to several 
libraries is important, and so whether it is a big library or, 
you know, whether it is Hoover in West Branch, all of them are 
important.
    How to fund them, that is beyond me. I am a user who wants 
to see all of them funded. But I do think, as I was saying in 
my testimony, that I think that there are ways in which 
academics can be involved in trying to do things like create 
oral history projects--because, often, libraries don't have 
enough funds for that--and maybe do internships, work-study 
programs to train people to help archivists go through papers.
    Mr. Issa. Thank you.
    Anyone else that wants to comment on this basic concept of 
13 foundations versus a 14th, if you will? David.
    Mr. Ferriero. It is an interesting concept to contemplate. 
We now get with the amendment to the Presidential Records Act 
with the Bush 43 library, 60 percent of the endowment now will 
come to support the libraries. It is interesting to contemplate 
a percentage of the endowments from across those libraries 
going to a common fund would accomplish what you suggest.
    We also should factor in the fact that we want to digitize 
as much as possible. So, in the future, is there a need for 
physical access to papers? Could papers be centrally stored 
somewhere, in Washington perhaps, because people have digital 
access? It is another option.
    Mr. Issa. Anyone else?
    Thank you. I yield back.
    Mr. Mica. Thank you.
    Let me yield to the gentleman from Maryland and the ranking 
member, Mr. Cummings.
    Mr. Cummings. I think I want to direct this question to Dr. 
Kumar and to you, Mr. Ferriero.
    You know, as I listen to this discussion, the thing that 
bothers me is that these are records of Presidents of the 
United States of America. These are records that it shouldn't 
be a luxury to maintain them. This is part of our history. When 
we travel to Greece and places like that, although our country 
is far younger, we hear about, we learn about the history, and 
I guess that is why they have the recordings and so that people 
5, 7, 800 years from now can appreciate this history.
    And I am just wondering do you have an opinion as to 
whether--you know, I understand how we set it up with the 
foundations and everything, but do we have an obligation, in 
your minds and particularly as an Archivist, to address these 
issues and these records as something that government must be 
about the business of doing and must be about the business of 
safeguarding as opposed to, let's just say, for example, the 
foundations fell on hard times, they weren't able to do it? I 
mean, I just wondered if you had an opinion on that.
    Yes, sir, and then I will to go to you.
    Mr. Ferriero. As I was trying to explain earlier, I feel as 
responsible and as passionate about those Presidential 
libraries as I do about the records of the agencies that are 
also in my custody. We have an obligation to ensure that they 
are taken care of, processed, and made available to the 
American public.
    Mr. Cummings. And Dr. Kumar.
    Ms. Kumar. In my own research, it has made an enormous 
amount of difference to see what it is that Presidents were 
doing at a time, and bringing records together like working in 
the Reagan Library--I was working on some of his speeches--and 
to see--well, you could see his speech text, but then going 
through the notes that the President himself made on it, and 
the changes that he made, made a great deal of difference as to 
what he did, but--in the views that one had of his own work. 
And I think it takes multiple sources and also being there.
    Students, I think in particular, would be the ones who 
would suffer. Because you bring in people that go into--young 
people who come into the environment of a Presidency like in 
the White House Decision Center at the Truman Library and get 
to experience what kinds of decisions the President made using 
documents that were classified at one time. And it is through 
things like that that people learn what a government does, the 
benefits of a government, and what Presidential leadership is 
all about.
    Mr. Cummings. Let me cut you off right there, because I 
have a limited amount of time.
    But let me ask you this. My major concern--I have several 
concerns--one, that we guard these records, that we make them 
available. And tagging on to something you just said, Dr. 
Kumar, I want to make sure that the kids in my district have 
access to those records, and I want them to be able to--they 
may never be able to visit a Presidential library, not as a kid 
or even as a young researcher, but I want them to have access. 
Because that is where I think we take our dollars and we 
stretch them so that more people have the benefit of them.
    And I think it was Mr. Putnam who was talking about the 
Kennedy Library doing all these wonderful things to make access 
more available, and I was wondering, do the other libraries 
have similar kinds of plans or programs and that kind of thing?
    And, Dr. Ferriero, I am just wondering, I mean, when you 
are dealing with these folks, did you ever say--was there an 
avenue for you to say, look, how can we make these records more 
accessible so that--I mean, and with the Web and all these 
wonderful tools that we have now that I didn't have as a kid 
and--but I will tell you, I mean, the idea that some kid in Mr. 
Gowdy's district in South Carolina, which is where my mother 
and father were former sharecroppers, if that little kid could 
sit there and, you know, go on the Internet or whatever and 
access this library, well, he may not be able to make it as a 
kid but certainly to learn and perhaps he will be inspired to 
go later on. So I am just wondering how does that play, and I 
see Mr. Putnam seems to be anxious to say something.
    Mr. Putnam. Well, we did that just last week. All these 
efforts that we digitized were really meant more for the 
scholars like Dr. Kumar. What we developed was an interactive 
where students could actually sit behind President Kennedy's 
desk--it is called the President's desk--and Caroline Kennedy 
helped us to launch it. So that a student in your district or a 
student in South Carolina could literally feel what it would be 
like to sit behind the President's desk. And then they can link 
on various interactives to tell the story of John F. Kennedy 
and our country's history and literally listen in to the 
conversation.
    And as the Archivist mentioned, all of the libraries 
collaborate. We have this interactive Presidential timeline 
that every library is involved in to be sure that it is not 
just the libraries that have these additional resources to make 
these materials available.
    But one thing related to a question Congressman Issa 
mentioned, even though some of us have foundations that have 
more resources, really, as your question indicated, it is the 
Federal Government's responsibility to preserve these records, 
to secure them, to process them, and declassify. None of us 
gets support from our foundations to do that. They recognize 
that that is a Federal responsibility. What they help us to do 
is some of these other interesting interactives.
    And the Archivist is a huge proponent of digitalization. My 
goal is to make as much as we have possible available in just 
the way that you described it. Because I am firmly convinced, 
based on my own experience, that if it isn't online, it doesn't 
exist in the minds of those kids.
    Ms. Kumar. And government itself benefits from the library 
materials and keeping them. Because you don't want people to 
make the mistakes of the past, and the only way they are going 
to learn is to really find out what happened, and answers are 
in those records. And in every recent administration, they have 
called upon the Presidential library to give them materials 
that relates to particular instances that they are trying to 
figure out what happened in the past. As I said earlier, the 9/
11 Commission relied heavily on materials from Presidential 
libraries.
    Mr. Cummings. Thank you, Mr. Chairman. Thank you very much.
    Mr. Mica. Thank you.
    Let me yield now to the gentleman from California and 
subcommittee chair, Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    First question I have is to Dr. Schwartz. The Lincoln 
Presidential Library is not part of the National Archives 
Presidential Library system. Can you describe what advantages, 
disadvantages that gives you and support that you would like to 
receive from the National Archives?
    Mr. Schwartz. Well, obviously, our biggest obstacle is that 
Lincoln's records are scattered. By doing the Papers of Abraham 
Lincoln, we literally went to hundreds of private-public 
repositories, as well as individual collectors in order to try 
to reassemble the record.
    The advantage that the current Presidential libraries 
system has is that those records remain intact, but Lincoln 
being a 19th century figure, you didn't have the Records Act 
which mandated how these records were to be maintained and 
stored. And so we are having to actually do this process of 
reassembling something that has been fractured and scattered to 
the four winds.
    As I indicated, we began as a research facility (research 
library), which had a broader mandate to collect the written 
history of the State of Illinois. When we were in search of 
getting funding for a larger facility for the library, it was 
also clear to us that the public had this great desire. They 
were seeing these records not as research materials but really 
as items for inspiration: for example, the Gettysburg Address, 
the Emancipation Proclamation, the 13th Amendment. And so in 
order to satisfy that need of the public, seeing these items 
more as artifacts, historical artifacts for inspiration, that 
is where the museum component came in.
    What we do, though, is in the museum we have a specific 
effects theater called Ghosts of the Library, which makes the 
connection between what the research library does and the 
historical content that they find in the museum; and being a 
public institution, supported by the State of Illinois, we 
encourage people on the museum side to go visit the library 
side and to examine some of these records for themselves.
    So our biggest problem, obviously, is Lincoln has been dead 
for almost 150 years, and there is no group of wealthy donors 
that typically funds Presidential libraries and museums while 
the President remains alive. However, Lincoln still has such an 
iconic position within the leadership of this country that we 
do have a strong donor base, and we are constantly looking for 
ways to expand that.
    Mr. Denham. So advantages or disadvantages compared to, 
say, the system that Mr. Blackwood enjoys in California.
    Mr. Schwartz. He has the advantage that many of President 
Reagan's close associates and donors remain alive and 
supportive of the institution, and he also has an advantage of 
having one of the most popular modern Presidents, and that is a 
great advantage.
    Our advantage is that Lincoln still is popular within the 
broad general audience, but it is more difficult for us to take 
that popularity and to translate it into actual donations and 
membership support.
    Mr. Denham. And how about receiving funds locally from 
State and local organizations versus being part of the Federal 
system?
    Mr. Schwartz. Being in the capital city of Illinois, which 
is maybe 118,000 people, it does not have a broad corporate 
base to draw upon, and we are in constant competition with 
trying to go to Chicago, which has that kind of corporate donor 
base, to compete with other cultural institutions located in 
Chicago. And so it is a challenge. But, again, we are not only 
reaching out to funding sources within Illinois but nationally, 
and I think that is the only way that any cultural institution 
can hope to survive.
    Mr. Denham. Thank you.
    Mr. Mica. Thank you.
    Pleased to recognize the gentleman from Pennsylvania, Mr. 
Altmire.
    Mr. Altmire. Thank you.
    I very much appreciate all of you being here, even those in 
the audience from other libraries and museums around the 
country.
    And, Ms. Roosevelt, it struck me when you were speaking 
that we all, as the chairman said, feel a personal interest in 
this as Americans, but you, of course, have a very personal 
interest in that particular library. You said in your very 
eloquent remarks that one of the purposes of the museum and the 
library is to carry on the legacy and values of your 
grandparents. And it struck me, in the context of what we are 
looking at today with regard to the funding of libraries and 
the ongoing support, there is the initial construction, but 
then there is the ongoing maintenance and operational expense, 
and it led me to think the different roles that these libraries 
and museums play.
    There is the library, the research component which we are 
focused on today which, thankfully, because of technology, more 
people are going to have access over the years. But there is 
the museum side, which is the library themselves making a 
determination, this is how we are going to present this former 
President, this is the light in which we are going to cast upon 
that President.
    And then there is the programming side, and museums have 
different missions with regard to programming. The Carter 
Center, for example, has a very specific programming mission 
and reason for carrying on that mission.
    And I wanted to ask the Archivist, in that context, under 
the current Presidential records law, there is no ability to 
edit documents or prioritize them or in any way politically one 
way or the other manage them; is that correct?
    Mr. Ferriero. That is correct, and one of the great things 
about having the records is that we let the records speak for 
themselves. So attempts at--whether it is a user or other 
people trying to twist history, we have the documentation to 
back it up.
    Mr. Altmire. And there have been very recent examples of 
libraries that have opened up their doors to researchers who 
have written very decorated books, Pulitzer Prize winners that 
were not entirely flattering to the subject, but that document 
is actually there, and you can interpret it however you want.
    Mr. Ferriero. Exactly.
    Mr. Altmire. However, on the museum and programming side, 
the concern--not a concern but I think it is worth discussing 
in the context of today--is when donors give money, especially 
when the individual may still be President or very recently had 
been President, what is the motivation of the donor, 
rhetorically?
    But something we are concerned about, the difference 
between public money, taxpayer money, and private money, and I 
understand foundations versus, you know, corporate or 
individual giving. But I would ask Mr. Putnam and Mr. Blackwood 
especially, how do you see the difference between the mission 
of libraries and your responsibility to portray the President 
fairly and in a very public way, but what is the expectation 
when private money comes in versus public money, and what would 
be the difference in the way libraries in the future would 
carry out their museum function?
    Mr. Putnam. Well, I very much appreciate the support that 
we receive from our foundation, but it always comes with the 
understanding that it is the Federal employees who make the 
final decisions. So, for instance, in our museum, it is a 
Federal employee who is the curator. She writes the text that 
gets approved by me. There is no influence at all from the 
foundation. Similarly, our foundation helps support our 
digitalization project, but it is clear that it is the chief 
archivist who decides which collection gets digitized and the 
priorities.
    So I think that should be the model, that the foundation 
can receive funds, but the Federal employees, again, are the 
ones who protect these records, help interpret them, and are in 
charge of how we portray those stories to the public.
    Mr. Blackwood. I would agree with my colleague, Mr. Putnam; 
and we are similar at the Reagan Library. While the support 
that the foundation provides us is extraordinary, we work hand 
in hand for that balance, and we are very much a part of that 
process.
    Mr. Altmire. Thank you.
    I would ask Dr. Kumar, with regard to the funding issue, 
there have been some Presidents--well, all Presidents, they are 
human and they have things that they would like to see 
portrayed and things they would like to see perhaps not shown 
to the public, at least not emphasized. Do you have a concern 
as a historian of the ability for libraries to water over or 
gloss over issues that perhaps might be something that the 
former President would want to see? So some of them have had 
very public failings. Do you think that public versus private 
money can in any way lead to influencing the way that the 
museum operates and the programming operates?
    Ms. Kumar. Well, I think that the Presidents understand 
there are going to be a lot of warts in their administration, 
and everything that they have done is not perfect, and they 
accept that and they probably accept it a little more than some 
of their relatives do.
    But I think there is probably a real difference among 
families, for example, and their support for opening things up. 
For example, in the Johnson Library, Lady Bird Johnson and the 
two daughters were very much behind opening up all the tape 
recordings before President Johnson even had wanted them to be 
released. And I think, you know, that the Archives knows what 
its mission is and the people that are the directors of the 
library.
    Now, sometimes there will be conflicts like, say, in the 
Nixon Library, but you are going to find, for example, there is 
going to be an exhibit on Watergate that is going to look at 
Watergate in a fair manner. And so I think in the long run the 
documents do speak for themselves and that the people who are 
the archivists are very interested in protecting documents, and 
then they know well which ones are important to decisionmaking 
and I think those ultimately win out.
    Mr. Altmire. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Let me yield now to the chair of another subcommittee of 
jurisdiction, the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Blackwood, Ms. Roosevelt was very eloquent in noting 
that libraries are repositories for information that is both 
good and bad. Dr. Kumar just used the word ``fair.'' Those 
phrases are inherently subjective. So how do we reconcile 
advocacy with history in determining what is historically 
significant, what is good, bad, and fair?
    Mr. Blackwood. First of all, historically significant, I 
think there is the obvious ones that you can point to in each 
of our administrations, but there is going to be those that are 
interpretive, just like what is fair and what is right and what 
should be. I think it needs to be a collaborative effort; and I 
think that is what each of us, all the Presidential libraries, 
work toward, is working with the foundation, working with the 
documents, the realities of the administration to put that 
forth.
    But because we are humans, you are always going to have 
that variance, but I feel very proud with what we have been 
able to accomplish and, quite frankly, with my colleagues, and 
we are very fortunate to be able to have that support to be 
able to do that.
    Mr. Gowdy. Dr. Schwartz, is fund-raising during the term in 
office problematic? And regardless of whether you think it is 
or not, do you advocate public disclosure of donors?
    Mr. Schwartz. Obviously, that is not an issue that we have 
a problem with.
    Mr. Gowdy. That is why I asked you.
    Mr. Schwartz. But in terms of, you know, the current 
system, I think more transparency is better than less.
    Mr. Gowdy. And the current system, for those who may not be 
familiar with it, is what?
    Mr. Schwartz. I believe that it is up to the individual 
foundation of whether those names are released or not.
    Mr. Gowdy. Mr. Ferriero, I was privileged to go to the 
Archives recently and was thoroughly impressed with your staff 
and your hospitality; and I, given my background, was 
particularly interested in the safety and what you have done 
with respect to theft and vandalism. Can you speak to that and 
whether or not you think the safeguards are sufficient as is?
    Mr. Ferriero. A culture of vigilance is something that I 
bring to the Archives from my previous lives in research and 
libraries. This is not something that you can say that you have 
done everything that you possibly can to protect the 
collection. It is something that I worry about all the time, 
and I will continue to worry about and ensure that we do 
everything possible to walk this fine line between protecting 
what we have and making it available to the American public. It 
is a challenge every day because anyone who wants to either 
steal or destroy or alter a document and is really serious 
about it, there are ways of accomplishing that, and our job is 
to ensure that they don't have those opportunities.
    Mr. Gowdy. Yes, sir.
    Dr. Kumar, would you be willing to weigh in on the funding, 
whether or not the database of donors should be public, whether 
or not there should be any Chinese wall, so to speak, between 
the donors and the officeholder? What system would you 
advocate?
    Ms. Kumar. Well, as a scholar, I am certainly a believer in 
transparency, but I think it ends up depending upon what the 
agreements were that people made earlier, and so to make 
records available now I think is difficult for various 
libraries. I mean, you can start a pattern for the future about 
what you expect in terms of transparency.
    Mr. Gowdy. Would you advocate a pattern that did not allow 
fund-raising during the term in office?
    Ms. Kumar. I think that is a difficult one. I am not 
convinced that the kinds of efforts that have been made at this 
point in the last administrations has made any difference. I 
don't see where donors got anything, you know, whether they got 
appointments or something like that. I would have to be 
convinced, because I don't see that that has been the case. I 
see the concern that you have, but it may be that transparency 
would be the answer during the period of the administration.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Mica. Very good questions, Mr. Gowdy. I had a couple of 
those on my mind.
    Back to the Archivist, just to assure everyone, you know, 
we did have a situation--I think Mr. Altmire talked about 
twisting history--but the question of access that a President 
would have, as we had with the Berger case when some of his 
aides--and I think you said you have put in place as many 
protections as you can, but you can't absolutely guarantee. Is 
that the case?
    Mr. Ferriero. That one was actually relatively easy to 
address in that those kinds of records, Presidential records, 
when they are being reviewed or used by a member of an 
administration, will be done in a SCIF, a protected area, and 
with someone watching.
    That is----
    Mr. Mica. Well, again, we need to make certain that we have 
as many protections in place as Representatives Gowdy and 
Altmire have brought attention to.
    I think the other question of the donors is a lot of 
popularity for a President when they are in office and as they 
are leaving office they have a lot of supporters, and it 
dramatically drops off. It is a lot harder. But I think the 
conclusion reached by everyone was, again, to encourage 
transparency in that process. We may have more discussions 
about that this afternoon.
    Just a couple of quick things again to the Archivist. 
Again, we have--in time and space, we have a dozen libraries, 
Presidential libraries and others; and they are now looking at 
maintaining their records and files and digitizing them. Is 
there a standard format that has been developed for all of that 
information?
    And the other thing, too, for those that may be watching 
the hearing, can they access it through the National Archives 
or do they have to go to each independent library? Maybe you 
could explain the setup we have, again, for a coordinated 
effort to make that information and those digitized records 
available.
    Mr. Ferriero. The user has options to go to the individual 
library or to go to the National Archives or the first line of 
defense for most folks is Google. And these records are 
searchable, retrievable through Google, so they have lots of 
different options.
    Mr. Mica. About the coordination with the Library of 
Congress, we will be meeting with the Librarian in a few 
minutes. That is also coordinated as far as format, access?
    Mr. Ferriero. There are national standards that we are 
using in the Archives, the same national standards that we 
actually helped develop with the Library of Congress. We do a 
lot of digitization, preservation work with the Library of 
Congress.
    Mr. Mica. OK. Ms. Roosevelt, in closing, I had a great 
opportunity when I was in high school. I attended a debate 
tournament at Emory University, and I heard your grandmother 
speak. It had to be about 1959, I believe, at Emory University. 
I will never forget that experience, which seeing you today 
makes me reflect on that experience.
    Here is a question I don't know the answer to. We cover the 
Presidents, but what about the First Ladies and their records? 
Are they adequately covered? And some of I guess your 
grandmother's records and documents, are they also covered 
adequately?
    Ms. Roosevelt. Well, I believe that the records of my 
grandmother's activities are the most complete at the Roosevelt 
Presidential Library. I am not sure that the First Ladies are 
covered as extensively, perhaps some of the more recent 
libraries have. But surely as these wives of our Presidents 
have acted on behalf of the government their papers are 
important for the understanding of how we operate.
    Mr. Mica. And maybe the Archivist and Mr. Putnam had his 
hand up.
    Mr. Putnam. I can just speak for the deed of gifts library. 
So we recently negotiated a deed with Caroline Kennedy for all 
of her mother's papers. We are in the process of processing 
those, and they will be open next fall. So it was contingent, 
though, on Caroline Kennedy giving us those papers in the same 
way that the Kennedy family gave us the records of President 
Kennedy. But, again, that is because I operate a deed of gift 
library.
    Mr. Mica. Any standardization of that, Mr. Archivist?
    Mr. Ferriero. I think across the Presidential library 
system the goal is to acquire and make available in the same 
way we do the Presidents' papers. It is a very timely question. 
Tomorrow, at American University, is an all-day conference on 
the First Ladies.
    Mr. Mica. Great timing.
    Any Members have any other questions?
    Well, we are going adjourn in just a second this hearing, 
our formal hearing. We will reconvene at 2:30, and we have many 
distinguished leaders of some of the various Presidential 
libraries. We couldn't get everyone on the panel. We would be 
here until midnight. But we will have an opportunity for 
everyone to participate at 2:30 in the Cannon Caucus Room. We 
will reconvene in a more informal setting and hopefully a 
productive setting, too, both for Members of Congress and also 
those who are engaged on a daily basis with operating, 
maintaining, and looking at the future of our Presidential 
libraries.
    We hope in our discussions this afternoon to continue focus 
on the relationship between the Federal Government and our 
Presidential libraries, both the public and private. We also 
want to discuss strengthening partnerships among the libraries, 
both Federal and non-Federal.
    And then again I think it is important that we look at 
facilitating the relationships that we have, various 
connections, technology, working with academia, other 
libraries, and again both the National Archives and the Library 
of Congress and each of the individual institutions. So I think 
we could have a good discussion this afternoon, an informal 
setting. Everyone is invited to participate in that.
    There being no further business before the joint 
committees, Transportation and Infrastructure and Oversight and 
Government Reform, this hearing is adjourned. Thank you.
    [Whereupon, at 12:38 p.m., the committees were adjourned.]

</pre></body></html>
